   DHS                Office for Domestic Preparedness
   DEPARTMENT OF HOMELAND         SECURITY
                            Commonwealth    of Virginia



       Office of Inspector General

        The Commonwealth of Virginia’s 

        Management of State Homeland 

        Security Grants Awarded During 

          Fiscal Years 2002 and 2003 





                    Office of Audits
OIG-06-45                                     July 2006
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                          July 7, 2006

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the audit of the Commonwealth of Virginia’s Management of State
Homeland Security Grants Awarded During Fiscal Years 2002 and 2003. We contracted with the
independent public accounting firm Cotton & Company to perform the audit. Cotton & Company is
responsible for the attached auditor’s report dated January 6, 2006, and the conclusions expressed in
the report.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner            

                                             Inspector General         

January 6, 2006

Ms. Belinda Finn
Deputy Assistant Inspector General for Audits
Office of Inspector General
Department of Homeland Security
245 Murray Drive, S.W. Bldg. 410
Washington, D.C. 20528

Dear Ms. Finn:

Cotton & Company performed an audit of the Commonwealth of Virginia’s (Commonwealth)
management of the Department of Homeland Security, Office for Domestic Preparedness, State
Homeland Security Grants for Fiscal Years (FY) 2002 and 2003. The audit was performed in accordance
with our Task Order dated August 27, 2004.

This report presents the results of the audit and includes recommendations to help improve the
Commonwealth’s management of the FY 2002, FY 2003 Part I, and FY 2003 Part II grant programs.
These grant programs are commonly referred to as first responder grant programs.

Our audit was conducted in accordance with applicable Government Auditing Standards. The audit was a
performance audit as defined by Chapter 2 of the Standards and it included a review and report of
program activities with a compliance element. Although the audit report identifies questioned costs
claimed by the Commonwealth, we did not perform a financial audit, the purpose of which would be to
render an opinion on the agency’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have any questions, or if we can be of
any further assistance, please call me at (703) 836-6701.

Very truly yours,

COTTON & COMPANY LLP



                            __________
Sam Hadley, CPA, CGFM
Partner
                                                   TABLE OF CONTENTS/ACRONYMS



I.    Executive Summary ............................................................................................................................. 1 


II. Background                ...................................................................................................................................... 1 


III. Audit Results ...................................................................................................................................... 3


      1. 	 The Commonwealth Did Not Adequately Document its Plan and Implementation of the

              Grant Programs.......................................................................................................................... 3

      2. 	 The Commonwealth Did Not Allocate ODP Grant Funds Based on its Risk 

              Assessment or Stated Needs and Goals..................................................................................... 6

      3. The Commonwealth Could Not Effectively Monitor Local Jurisdictions ....................................... 8

      4. 	 The Commonwealth Did Not Have Adequate Internal Controls Over Monitoring Cash 

              Advances ................................................................................................................................. 13

      5. 	 The Commonwealth Did Not Adhere to Grant Requirements Regarding 

              Equipment Purchases .............................................................................................................. 15


Appendices................................................................................................................................................. 19 


      Appendix A           Objectives, Scope and Methodology ............................................................................. 20 

      Appendix B           Schedule of Application Delays .................................................................................... 21

      Appendix C           Schedule of Procurement Delays................................................................................... 22 

      Appendix D           Schedule of Closeout Delays ......................................................................................... 23 

      Appendix E           Schedule of Days Between Funds Transferred and First and Last Purchases ............... 24 

      Appendix F           Schedule of Questioned Costs from Sampled Site Visits .............................................. 25 


Management Responses to the Draft Report.......................................................................................... 28 


Report Distribution................................................................................................................................... 34 


Acronyms

AEL                     Authorized Equipment List
CBRNE                   Chemical, Biological, Radiological, Nuclear, or Explosive
CFR                     Code of Federal Regulations
DHS                     Department of Homeland Security
FY                      Fiscal Year
G&T                     Office of Grants and Training
ISIP                    Initial Strategy Implementation Plan
OCP                     Office of Commonwealth Preparedness
ODP                     Office of Domestic Preparedness
OIG                     Office of Inspector General
OJP                     Office of Justice Programs
SAA                     State Administrative Agency
SDPP                    State Domestic Preparedness Program
SDPS                    State Domestic Preparedness Strategy
SEL                     Standardized Equipment List
SHSGP                   State Homeland Security Grant Program
SLGCP                   State and Local Government Coordination and Preparedness
VDEM                    Virginia Department of Emergency Management
VPSP                    Virginia Preparedness and Security Panel
WMD                     Weapons of Mass Destruction
DHS                                                               Office for Domestic Preparedness
                                                                        Commonwealth of Virginia


I. EXECUTIVE SUMMARY

Cotton & Company completed an audit of the Commonwealth of Virginia’s (Commonwealth) management of
the Department of Homeland Security (DHS), Office for Domestic Preparedness (ODP) State Homeland
Security Grants to determine whether the State (1) effectively and efficiently implemented the first responder
grant programs, (2) achieved the goals of the programs, and (3) spent funds in accordance with grant
requirements. The goal of the audit was to identify problems and solutions that would help the Commonwealth
prepare for and respond to terrorist attacks. Appendix A discusses the details of our objectives, scope, and
methodology of this audit.

ODP awarded about $53.5 million to the Commonwealth from the Fiscal Year (FY) 2002 State Domestic
Preparedness Program, and from Parts I and II of the FY 2003 State Homeland Security Grant Program. The
Virginia Department of Emergency Management (VDEM) managed the first responder grant programs for the
Commonwealth.

Our audit disclosed several areas where the Commonwealth could improve its grant performance. Specifically:

1. 	    The Commonwealth did not adequately document its plan and implementation of the grant
        programs.

2. 	    The Commonwealth did not allocate ODP grant funds based on its risk assessment or stated needs
        and goals.

3. 	    The Commonwealth could not effectively monitor local jurisdictions.

4. 	    The Commonwealth did not have adequate internal controls over monitoring cash advances.

5. 	    The Commonwealth did not adhere to grant requirements regarding equipment purchases.

As a result of the issues noted above, we made eight recommendations to ODP. The DHS Office of Inspector
General (OIG) requested comments on the draft report from ODP on April 14, 2006. On June 5, 2006, the
Office of Grants and Training (G&T, formerly ODP) provided comments to the draft report and the
recommendations contained therein. G&T identified planned or completed actions to address the
recommendations made.

While this audit included the amount of claimed costs that were within the scope of our review, we did not
perform a financial audit of claimed costs. Accordingly, we do not express an opinion on the Commonwealth’s
financial statements, or the costs claimed in the Financial Status Reports submitted to ODP. During our review
of sampled claimed costs, we did identify unallowable program costs that are shown in Appendix F, Schedule of
Questioned Costs. We did not expand our testing to identify all questioned costs claimed; only those identified
during our review are listed in Appendix F. The Commonwealth may identify additional questioned costs as
closeout packages (identifying actual purchases) are submitted by the local jurisdictions and reviewed by the
Commonwealth. While this report addresses the Commonwealth’s management of the three grant programs, we
also identified potential opportunities for improved oversight by the ODP staff. The OIG will consider reporting
these opportunities under separate cover when the results of other State audits are available.

II. BACKGROUND

ODP was transferred from the Department of Justice to DHS in March 2003. In March 2004, the Secretary of
Homeland Security consolidated ODP with the Office of State and Local Government Coordination to form the
                                                    1

DHS                                                                          Office for Domestic Preparedness
                                                                                   Commonwealth of Virginia

Office of State and Local Government Coordination and Preparedness (SLGCP) and in January 2006, SLGCP
was renamed the Office of Grants and Training.1 ODP is responsible for enhancing the capabilities of state and
local jurisdictions to plan for, prepare for, prevent, respond to, and mitigate the consequences of incidents of
domestic terrorism. During FY 2002 and FY 2003, ODP provided grant funds to aid public safety personnel
(first responders) to provide specialized training/exercises and acquire equipment necessary to safely respond to
and manage terrorist incidents involving weapons of mass destruction (WMD). First responders include
firefighters, police, paramedics, and others. These grants are commonly referred to as first responder grants.

FY 2002 State Domestic Preparedness Program (SDPP): This program provided financial assistance to each
of the nation’s states, U.S. Territories, the District of Columbia, and the Commonwealth of Puerto Rico. ODP
provided financial assistance for (1) the purchase of specialized equipment to enhance the capability of state and
local agencies to respond to incidents of terrorism involving the use of WMD; (2) the protection of critical
infrastructure; (3) costs related to the design, development, conduct, and evaluation of WMD exercises; and,
(4) administrative costs associated with the implementation of the statewide domestic preparedness strategies.

FY 2003 State Homeland Security Grant Program - Part I (SHSGP-I): This program provided
financial assistance for (1) the purchase of specialized equipment to enhance the capability of state and
local agencies to prevent and respond to incidents of terrorism involving the use of chemical, biological,
radiological, nuclear, or explosive (CBRNE) weapons; (2) the protection of critical infrastructure and
prevention of terrorist incidents; (3) costs related to the design, development, conduct, and evaluation for
CBRNE exercises; (4) costs related to the design, development, and conduct of state CBRNE training
programs; and, (5) costs associated with updating and implementing each state’s homeland security
strategy.

FY 2003 State Homeland Security Grant Program - Part II (SHSGP-II): This program supplemented
funding available through FY 2003 for the SHSGP to enhance first responder preparedness. SHSGP II
funds were also available to mitigate the costs of enhanced security at critical infrastructure facilities
during the period of hostilities with Iraq and future periods of heightened threat.

The Commonwealth received about $53.5 million from these three grant programs. The funded activities
and amounts are shown in Table 1:

                                                         Table 1
                                                                   Grant Programs
                                                     FY 2002         FY 2003       FY 2003
    Funded Activities                                 SDPP           SHSGP-I      SHSGP-II               Totals
    Equipment Acquisition Funds                       $6,572,450       $8,924,000              N/A      $15,496,450
    Exercises Funds                                      313,000        2,231,000              N/A        2,544,000
    Training Funds                                          N/A           669,000              N/A          669,000
    Planning and Administration Funds                    176,550          892,000              N/A        1,068,550
    First Responder Preparedness Funds                      N/A              N/A        $29,192,000      29,192,000
    Critical Infrastructure Protection Funds                N/A              N/A          4,491,000       4,491,000
    Totals                                            $7,062,000      $12,716,000       $33,683,000     $53,461,000

The Commonwealth has two organizations that assist in administering the homeland security grants. The
Office of Commonwealth Preparedness is primarily responsible for planning while the Virginia

1
    For the purposes of this report, we will use ‘ODP’ to discuss the first responder grant programs.
                                                             2
DHS                                                                  Office for Domestic Preparedness
                                                                           Commonwealth of Virginia

Department of Emergency Management does the day-to-day grant administration and subgrantee
oversight.

Office of Commonwealth Preparedness (OCP)

The mission of OCP is to work with and through others including federal, state, and local officials as well
as the private sector, to develop a seamless, coordinated security and preparedness strategy. The
Governor of the Commonwealth created this cabinet level office in order to promote security measures at
the highest level. The Office of the Assistant to the Governor for OCP matters is supported by a deputy,
administrator and assistant and is charged primarily with ensuring that state resources are directed toward
safeguarding Virginia and its citizens. Other areas of responsibility include:

        • 	 Working with federal officials to obtain additional federal resources and to coordinate policy
            development and information exchange.

        • 	 Coordinating working relationships between state agencies and the Governor's cabinet.

        • 	 Serving as the point of contact with the Department of Homeland Security.

        • 	 Serving as the Governor's representative on regional efforts.

        • 	 Serving as a direct liaison between the Governor and local governments and first responders on
            issues of emergency preparedness.

        • 	 Educating the public on homeland security and overall preparedness issues.

        • 	 Chairing the Secure Commonwealth Panel which makes recommendations on preparedness
            (legislation, regulation, policy, budget, outreach, organization) to the Governor.

        • 	 Reviewing/developing all disaster, emergency management, and terrorism management plans for the
            state and its agencies.

Virginia Department of Emergency Management

VDEM, as grantee, is responsible for the Commonwealth’s administration of the first responder grants.
VDEM is the coordinating agency for the Commonwealth on all matters relating to the mitigation of,
preparation for, response to, and recovery from all emergencies and disasters resulting from terrorist
incidents. As such, ODP designates VDEM as the State Administrative Agency (SAA). Currently,
VDEM’s homeland security grants management staff is comprised of three members who are responsible
for managing and administering the ODP grants. Accordingly, the division managed the FY 2002 and
FY 2003 ODP grants, as well as other first responder grants.

III. AUDIT RESULTS

1.	     The Commonwealth did not adequately document its plan and implementation of the grant
        programs.

The Commonwealth’s 1999 Statewide Domestic Preparedness Strategy (SDPS), published in February
2002, did not appear to adequately assess threats, vulnerabilities, or capabilities, or prioritize homeland

                                                      3

DHS                                                                   Office for Domestic Preparedness
                                                                            Commonwealth of Virginia

security needs within the Commonwealth. In addition, the SDPS did not define or state the
Commonwealth’s goals and objectives, or define the methods the Commonwealth would use to evaluate
performance.

ODP required SAAs to administer annual grant awards in accordance with its Fiscal Year 2002 State
Domestic Preparedness Program grant instructions and to allocate grant funds in accordance with the
states’ domestic preparedness strategies. ODP also defined the various types of equipment, exercise, and
administrative funds that were authorized to the states. In addition, ODP issued the Fiscal Year 1999
State Domestic Preparedness Equipment Program (subtitled Guidance for the Development of a
Three-Year Statewide Domestic Preparedness Strategy), effective May 15, 2000. This guide identified
nine tasks that each SAA should undertake to develop a strategy. We compared these tasks to the ones
completed in the Commonwealth’s SDPS and found several that were not included in the
Commonwealth’s strategy. Table 2 shows our results.

                                                   Table 2
                                                                                        Included in
     Task                                                                             Commonwealth’s
     No. Task                                                                            Strategy?
       1     Address Jurisdiction Identification and Coordination Issues                      No
       2     Conduct Risk Assessment                                                         Yes*
       3     Conduct Capabilities and Needs Assessments                                      No**
       4     Complete Jurisdiction Prioritization Matrix                                     Yes
       5     Prepare Three-year Projection Forms                                             Yes
       6     Complete Additional Training Information Form                                   Yes
       7     Complete Emergency Response Team Surveys                                        Yes
       8     Complete Forms for Recommendations for State and Local
             Response to WMD Terrorism Incidents                                              No
       9     Three-year Statewide Domestic Preparedness Strategy                              Yes
    * The risk assessment was completed, but not directly coordinated among all stakeholders.
    ** The Commonwealth assessed its needs, but because it did not conduct an inventory of equipment on
    hand, it could not assess capabilities.

This guidance also recommended that SAAs form a multi-disciplined team at three levels of government
that would be responsible for assessing threats, vulnerabilities, capabilities, and needs. However, no
disciplines from the federal level were included in the plan. Finally, ODP issued additional program
guidance, Fiscal Year 1999 State Domestic Preparedness Equipment Program Assessment and Strategy
Development Tool Kit (tool kit), which also outlined a comprehensive approach for developing a strategy.

Although some guidance was available, the Commonwealth did not develop an effective strategy. For
example, the Commonwealth did not create a planning team with the seven types of professional
disciplines at levels of government as ODP envisioned. Additionally, the development of the strategy,
which was the byproduct of the risk assessment (Task No. 2) and the capabilities and needs assessment
(Task No. 3) processes, was not a coordinated, interrelated effort among state agencies and critical
stakeholders such as local jurisdictions within the Commonwealth.

Under ODP’s nine-step approach, the data collected from the threat assessment and needs assessment
would become the basis for developing and defining the Commonwealth’s strategy. However, OCP
informed us that it authored the narrative section of the 1999 Strategy late in calendar year 2001 without

                                                       4

DHS                                                                 Office for Domestic Preparedness
                                                                          Commonwealth of Virginia

coordinating its efforts with, or requesting information updates from, either VDEM or the State Police.
With no coordination between the threat assessment and needs assessment efforts, the Commonwealth
was further impaired because information was outdated by the time the strategy was developed 12-15
months later. Conducting separate but interrelated processes over a span of 12-15 months without
coordinating them at any level was an ineffective method for developing a cohesive strategy for the
Commonwealth.

In recognition of the Commonwealth’s desire to update its strategies, on September 25, 2001, under
Executive Order 85 (01), the Governor created the Virginia Preparedness and Security Panel (VPSP) and
mandated that it “undertake…a swift analysis of security threats within the state in order to identify risks
to Virginians…” Accordingly, the Governor specified that the responsibilities of the VPSP would
include: conducting a threat analysis in the Commonwealth; assessing risks, abilities and capabilities; and,
addressing funding priorities to resolve gaps and threats within the Commonwealth. The Governor set
November 30, 2001, as a deadline for the VPSP to submit a report.

Once the VPSP carried-out and fulfilled its responsibilities regarding assessing threats and needs, it had
the ability to develop the Commonwealth’s Strategy. However, while the VPSP identified numerous
goals and made over 35 recommendations in its report to the Governor, we found no empirical evidence,
documentation, or statements made throughout the report indicating that the VPSP assessed threats,
capabilities, risks, and needs, or identified any resultant and necessary changes to the Commonwealth’s
homeland security funding priorities.

Additionally, ODP noted in its analysis of the strategy in February 2004 that the Commonwealth’s
strategy did not establish adequate performance measures, giving the Commonwealth a mechanism to
monitor the progress of subgrantees needed to evaluate its overall program goals and objectives. ODP
reported on this weakness in March 2005, stating that the Commonwealth’s 1999 strategy did not contain
an effective program evaluation process. Accordingly, without adequate program evaluation or processes
to monitor program performance, funds may not be allocated to areas of highest need.

The Commonwealth stated that it started analyzing performance measures in 2002; however, the
measures and results were not documented. Recognizing a void in performance measures, the
Commonwealth issued a 34-page document titled Performance Measures for Commonwealth
Preparedness. This guidance, issued May 10, 2005, recommends periodic reviews and self-assessments,
links past performance to future funding, establishes minimum performance thresholds, and ties risks to
strategies. This type of quantifiable data is necessary if the Commonwealth is to achieve an effective
strategy in the future.

Overall, the Commonwealth’s 1999 Statewide Domestic Preparedness Strategy led to several inter-related
weaknesses. First, the Commonwealth could not determine the gap between its vulnerabilities and
capabilities, which is the initial step in identifying needs. Secondly, it was also unable to identify first
responder grant monies that could be used to satisfy the highest priority needs and requirements of the
state. Consequently, the Commonwealth was unable to comply with ODP grant terms and conditions,
which required the Commonwealth to use the strategy as a roadmap for allocating funds. Lastly, without a
reliable and data-valid baseline document, the Commonwealth could not update, improve, or change its
strategy.

The development of a comprehensive strategy continued to be problematic for the Commonwealth. With
the 2003 Strategy, the Commonwealth included all 134 jurisdictions in the process, but did not validate or
corroborate critical information and data that the jurisdictions submitted as part of the strategy. The
Commonwealth stated that it had insufficient time to validate data. In addition, the Commonwealth stated
                                                     5

DHS                                                                      Office for Domestic Preparedness
                                                                               Commonwealth of Virginia

that they did not have enough time to plan, coordinate, and conduct the 2003 Strategy. However, ODP
indicated in its ODP Information Bulletin No. 62 on October 4, 2002 (our emphasis), that a 2003 Strategy
would be needed. Additionally, as with the 1999 strategy, the ODP Preparedness Officer noted that the
2003 strategy did not have a formal evaluation component.

The Commonwealth has recognized that the official strategies that were submitted to ODP were deficient
at various levels and is subsequently working toward completing (by the beginning of FY 2006) a
strategy that accurately portrays the state’s vulnerabilities and needs. The Commonwealth has indicated
that they will provide a strategy with a much greater emphasis on risks, and will allocate funds
accordingly. Since OCP provided us only with a Table of Contents of the 2006 Strategy, we were unable
to review its contents.

Recommendation 1: We recommend that ODP require the Commonwealth to implement procedures that
will assure that its 2006 Strategy is a complete, accurate, and a coordinated document that assesses
threats, vulnerabilities, and risks.2

Management’s Response: G&T does not believe that there was a requirement that mandated grantees to
incorporate threat, vulnerability, and risk data in their updated strategies. However, they wholly
supported a collaborative effort between the Commonwealth and its sub-grantees to conduct such efforts.
Accordingly, the Commonwealth submitted a completely revised Homeland Security Strategy prior to
applying for FY 2006 grant funding, which was approved (after the Commonwealth made suggested
corrections) on May 3, 2006, by the DHS Strategy Review Board.

Auditor’s Additional Comments: The updated Strategy was not included in the response to this report,
nor did G&T specifically state that the revised Strategy was a complete, accurate and coordinated
document that assesses threats, vulnerabilities and risks. However, we believe that G&T has adequately
resolved this finding and in its memo transmitting our final report to G&T, the OIG has asked G&T to
provide the Commonwealth’s revised homeland security strategy or other documentation showing that the
collaborative efforts between the Commonwealth and its subgrantees resulted in a FY 2006 strategy that
was complete, accurate, and coordinated to assess threats, vulnerabilities, and risks.

2.     The Commonwealth did not allocate ODP grant funds based on its risk assessment or stated
needs and goals.

The Commonwealth allocated the majority of grant funds on a per capita basis. As discussed in Finding
No. 1, the Commonwealth’s strategies did not adequately represent the state’s needs, nor did the
Commonwealth use any risk-based approach to allocate funding. Moreover, the Commonwealth did not
consider that nearly every jurisdiction in the state received some form of additional grant funding before
and during the timeframe that the SDPP and SHSGP grant monies were available. While the bulk of the
additional funding was aimed at the densely populated jurisdictions within the Commonwealth, and
primarily within the National Capital Region, over $200 million in other grant funds was available for
first responder needs and requirements, as shown in Table 3 below:




2
 ODP issued additional guidance in June 2005 noting that FY 2006 funds will not be disbursed until states submit
an updated strategy. Needs identified in the strategy must be risk-based, and the strategy must include goals and
objectives that address prevention, response and recovery.
                                                         6

DHS                                                                 Office for Domestic Preparedness
                                                                          Commonwealth of Virginia

                                                  Table 3
                  Type of Funding                                            Amount*
                  2002 Direct Pass Thru                                   $ 48,600,000
                  Assistance to Firefighters                                33,100,000
                  Law Enforcement Terrorism Prevention                       9,300,000
                  Citizens Corp                                              1,200,000
                  Emergency Management Performance Grant                    10,500,000
                  Metropolitan Medical Response System                       6,000,000
                  Port Security Grants                                       1,300,000
                  Urban Area Security Initiative                            96,300,000
                  Total                                                   $206,300,000
                * These amounts do not include over $30 million of Edward Byrne Memorial
                Grant program funds awarded to the Commonwealth.

These other grant funds have some of the same objectives as the SDPP and SHSGP grant funds, allowing
for the same expenditures such as equipment, training, exercises, planning, and technical assistance.
Accordingly, had the Commonwealth had detailed knowledge and performed analyses of these other
funding sources, they might have determined that the jurisdictions with access to additional revenue
streams may have satisfied their core competency needs with non ‘first responder grant’ funds. Given
that type of scenario, the Commonwealth could have redirected SDPP and SHSGP grant funds to
jurisdictions whose needs and requirements remained unfulfilled. ODP’s State Homeland Security
Assessment and Strategy Program stated in 2003, “…ODP funding is only one source for making the
strategy a reality for the state. Other federal, state, local, and private funding can be used to reduce the
identified state and local needs and requirements.”

ODP guidance regarding its grants, as well as other government guidance, was clear regarding the need
for grant funds to follow the priorities identified in a state’s strategy (based on needs). For example, the
FY 2003 SHSGP-I grant instructions stated that funds were to be provided “in accordance with the state’s
approved homeland security strategy (or the State Homeland Security Strategy).…” In addition, the
Government Accountability Office, in its audit of the first responder grant program,3 stated that strategies
would target grant funds through FY 2003.

While the strategies should have been used to develop the spending plan for grant funds, the
Commonwealth chose a different method to allocate funds among the jurisdictions, which was generally
based on population levels. The Commonwealth stated that a base amount of funding plus additional
funding allotted on a per capita basis allowed every jurisdiction in the Commonwealth to accomplish a
basic level of competency. In addition, the Commonwealth noted that ODP’s distribution of grant funds
nationwide was also based on a per capita formula, and subsequently reasoned that their chosen
methodology would be acceptable. However, by allocating funds based on population, the
Commonwealth increased the risk that jurisdictions with higher needs were not funded in that
relationship.

In addition, the Commonwealth’s rationale regarding basic levels of core competencies was not followed
by several jurisdictions that spent funds on items that were not fundamental to their mission. Although
these jurisdictions may have met those needs with other funds, they used ODP grant monies to purchase


3Management of First Responder Grant Programs Has Improved, but Challenges Remain, Report No. GAO-05-121,
February 2005, Page 13.
                                                     7

DHS                                                                 Office for Domestic Preparedness
                                                                          Commonwealth of Virginia

items that are not core competency items. That is, these items did not appear to be the type of purchases
that would provide each jurisdiction with a basic level of competence. Moreover, we noted that at least
four of the jurisdictions that we visited received non-SDPP/SHSGP grant funds; these funds were used to
obtain core competency items exclusive of the SDPP/SHSGP awards. Local jurisdictions purchased
things like ice rescue equipment, TVs and accessories, backup cell phones, and Blackberry devices.

For more recent grants, the Commonwealth stated that it has distributed less of the grant award on a per
capita basis. The Commonwealth allocated the FY 2004 State Homeland Security Grant, which totaled
$33.4 million, using the same per capita formula. Approximately half of the $38 million award under the
FY 2005 grant was distributed among state agencies, law enforcement agencies, and other homeland
security components within the Commonwealth. The remaining $19 million was available for the
134 jurisdictions. OCP allocated $8.4 million on a base plus per capita formula to the jurisdictions, and
about $11 million based on competitive elements such as risk, critical infrastructure, and needs.
Additionally, the Commonwealth informed us that the allocation methodology for FY 2006 grant funds
will be almost exclusively risk-oriented. However, a report by OCP’s Funding Task Force Panel, issued
on May 10, 2005, states that localities need long-term strategies that will be compatible with state
strategies; however, the panel continues to promote funding allocations to the locals using a base-plus­
population formula. As such, it itemizes a funding formula of 35 percent population, 35 percent risk, and
30 percent competitive. Conversely, the Commonwealth’s Performance Measures for Commonwealth
Preparedness, also issued on May 10, 2005, recommends that the Commonwealth abandon population
formulae and adopt allocation methodologies based on risks:

        “Members of the task force recommend that the Commonwealth develop its security and
        preparedness plan and allocate resources on the basis of an assessment of ‘risks’ and not
        on the basis of a pre-ordained or automatic formula based on population.”

Recommendation 2: We recommend that ODP require that the Commonwealth completes its statewide
strategy and needs assessment, and determines the best method to link the funds distribution to its threats,
associated risks, and needs assessment. The strategy should also include any processes associated with
this allocation methodology.

Management’s Response: G&T required grantees to link funding to the goals and objectives identified
in their State Homeland Security Strategy, and for FY 2006, the Commonwealth provided documentation
to support the link between funding and its goals and objectives. G&T believes that the Commonwealth
met the requirement to assess needs and subsequent funding allocations in its FY 2006 grant application
process. G&T noted that the Commonwealth received technical assistance from them, as well as
submitting its Enhancement Plans and Investment Justifications for peer review.

Auditor’s Additional Comments: We believe that G&T has adequately resolved this finding and, in its
memo transmitting our final report to G&T, the OIG requested that G&T provide the Commonwealth’s
revised homeland security strategy or other documentation that will demonstrate the linkage between the
funding and the Commonwealth’s goals and objectives.

3.      The Commonwealth could not effectively monitor local jurisdictions.

The Commonwealth could not effectively monitor local jurisdictions to ensure that they maintained
sufficient financial records, complied with grant and Commonwealth requirements, and met performance
deadlines. The Commonwealth decentralized the majority of the grant requirements, duplicating most
grant responsibilities at the local jurisdiction level. This ensured that the local jurisdictions were
responsible for all grant requirements. However, the grant management functions at the local levels were
                                                     8

DHS                                                                        Office for Domestic Preparedness
                                                                                 Commonwealth of Virginia

not effective primarily because the Commonwealth did not have enough staff available at the local level
or within the responsible Commonwealth offices to ensure that the jurisdictions efficiently performed
these functions.

While the Commonwealth spent or encumbered a significant portion of the administrative funds available,
the funding was not used to enhance subrecipient monitoring or training, or to add VDEM staff for the
significant amount of increased oversight and administration these grants required. The Commonwealth
could have utilized grant funds from the three ODP grants included in the scope of this review to assist
with the additional administrative workload that the grants created. All three grants included provisions
that would have allowed the Commonwealth to add some level of staffing assistance to administer the
grants. For example, the Office of Justice Program’s (OJP’s) Fiscal Year 2002 State Domestic
Preparedness Program, Section II, C, 3, Administrative Funds, states that funds for this program may
also be used to pay for activities associated with implementation of the goals and objectives identified in
the state’s domestic preparedness strategy, such as “...implementing and managing programs for
equipment acquisition.…” In similar manner, the FY 2003 SHSGP-I grant allowed funds to be used to
complete the FY 2003 assessment and the strategy update process, as well allowing funding to be used for
implementing and managing programs for equipment acquisition. Moreover, specific provisions in the
FY 2003 SHSGP-II grant would have allowed grant funds to be used for additional full or part-time
staffing costs associated with the implementation and administration of the state homeland security
strategic plan.

In addition, ODP allotted funds4 to be used for administrative support purposes, requiring states to “… be
sufficiently staffed to administer the full range of support programs offered by ODP and other federal
agencies”. While the Commonwealth used some of the administrative funds available with the FY 2002
SDPP and FY 2003 SGSGP-I grants to supplement VDEM salaries, they could have used over $875,000
from the 2003 SHSGP-II grant for the same purposes, but chose not to use those funds. The
Commonwealth has not improved local jurisdiction monitoring for current grants and has not increased its
staffing level or used administrative funds to help monitor local jurisdictions. The Commonwealth’s
grants management staff consisted of only three individuals throughout the collective time period of the
three grants included in the scope of this review.

Administrative duties and responsibilities associated with the ODP grants were unmanageable and
overwhelmed the limited staff at both the local jurisdiction and state levels. As noted above, the
Commonwealth did not use available administrative funds for monitoring or oversight of subrecipients in
meeting significant grant responsibilities. Additionally, the Commonwealth did not provide
administrative support or funds for administrative support to the local jurisdictions to assist in the
application, procurement, and closeout processes. Finally, the Commonwealth did not ensure that local
jurisdictions had staff in place to effectively and efficiently apply for grants, procure equipment, and
closeout grants. Because of insufficient resources, local jurisdictions could not comply with grant
requirements in a timely manner, nor be responsive to those requirements. Examples of situations at the
local jurisdictions that cause difficulty and delays in the Commonwealth’s chosen decentralized subgrant
process include:

    •    Local jurisdictions did not have defined needs. While local jurisdictions were responsible for
         deciding how best to use allocated funds, the Commonwealth did not adequately prepare the

4For the FY 2002 SDPP grant, $176,550 was available to the Commonwealth to enhance their administrative
capabilities. While the FY 2003 SHSGP-I and II grants did not specifically identify the amount of funds available
for use, grantees were instructed to “assess current staffing levels and determine whether a portion (of grant funds)
should be used to enhance administrative capabilities within the SAA.”
                                                           9

DHS                                                               Office for Domestic Preparedness
                                                                        Commonwealth of Virginia

      jurisdictions for these responsibilities. The Commonwealth did not provide a priority of what to
      buy or establish priority goals, nor require that jurisdictions prepare or maintain an accurate
      contemporaneous account of their needs. Local jurisdictions that had needs assessments (that
      were updated and modified as items were acquired or as needs changed) were able to quickly
      identify the best use of the grant funds. For example, Bedford County was consistently prepared
      each time the Commonwealth provided grant funding. For the SDPP grant in FY 2002, Bedford
      County completed its purchases 5 months after receiving funds. For the FY 2003 SHSGP-I grant,
      the purchase period in Bedford County decreased to 3½ months, while for the FY 2003 SHSGP-II
      grant, Bedford County made purchases after grant notification, but prior to receiving funds from
      the Commonwealth. Other jurisdictions spent considerable time identifying the best use of grant
      funds before purchasing was initiated.

 • 	 Grant application requirements and close-out processes at the local level were paper-
     intensive for the local jurisdiction staff. The Commonwealth required local jurisdictions to
     complete a substantial amount of paperwork related to the application process and closeout
     package. The Commonwealth required local jurisdictions to submit an application package for
     each grant with various certifications. Because many of these certifications required local
     government approval, several months lapsed before the jurisdictions returned the necessary
     paperwork to the Commonwealth. Also, the Commonwealth required local jurisdictions to
     submit a closeout package for each grant. To complete the package, local jurisdictions were
     required to prepare a closeout worksheet that detailed each transaction under the grant. Further,
     local jurisdictions were required to submit invoices and receipts to the Commonwealth as part of
     the closeout package. While requiring supporting documentation is a good control, submitting
     transaction-level detail as part of the closeout package, which potentially could be years after
     receiving the award, causes an administrative burden on local jurisdictions. The Commonwealth
     did not have the staff available to perform periodic reviews or site visits.

 • 	 Organizational structures at some jurisdictions consisted of several management layers
     which required significant time to process grant functions. Various processes at some local
     jurisdictions required several layers of management review and made it virtually impossible to
     meet grant deadlines or follow required local procedures. Many local jurisdictions have a City
     Manager, or equivalent who receives the grant award from the Commonwealth, but then
     delegates grant responsibility to others. This causes delays as well as communication
     breakdowns. Some jurisdictions are so large that they distribute awards to second-tier
     subgrantees on a competitive basis. This second-tier award may have the same requirements and
     responsibilities as the Commonwealth or subgrantee grant requirements, thus adding another level
     of grant management.

      Additionally, many of the Commonwealth’s city and county laws required local jurisdiction
      governments to approve various aspects of the grants. For example, in Fairfax County, the Board
      of Supervisors was required to approve grant applications at regular meetings. Advance notice
      was required to add grant applications to the agenda, adding a number of days to the process. In
      addition, before purchases could be made, the funds had to be appropriated by the County Board.

      Finally, purchases were required to go through a procurement process, which differed slightly at
      each local jurisdiction. The procurement process included conducting research to decide the best
      equipment, obtaining multiple quotes from vendors, and using certain contracts. Also, certain
      cities and counties allocated funds to agencies in their jurisdictions, and these agencies also had
      procurement processes that must be followed. A report prepared by the House Select Committee
      on Homeland Security identified similar local jurisdiction delays in the states that were sampled
                                                  10

DHS                                                                   Office for Domestic Preparedness
                                                                            Commonwealth of Virginia

           for that report5. Many of the sampled jurisdictions had separate procurement rules that added
           significant time delays to the project. In Lynchburg City, funds were received in advance, but the
           city still required city council approval for expenditures in excess of $1,000.

Because: (1) the Commonwealth passed most grant responsibilities down to the local level, (2) the
Commonwealth and local jurisdictions did not have the staff available to timely perform the full range of
grant management responsibilities, and (3) the Commonwealth did not effectively use the administrative
funds available, we concluded that the state could not effectively comply with Uniform Administrative
Requirements for Grants and Cooperative Agreements with State and Local Governments (Administrative
Requirements for Grants), 28 Code of Federal Regulations (CFR) § 66.40(a), Monitoring by grantees.
Under these provisions, grantees must:

           • 	 Manage the daily operations of grant- and subgrant-supported activities,

           • 	 Monitor grant and sub-grant supported activities to ensure compliance with applicable federal
               requirements, and ensure that performance goals are being achieved, and

           • 	 Monitor each program, function, or activity.

Ineffective monitoring of subgrantees had several negative effects including:

           • 	 Local jurisdictions did not have adequate financial management systems to administer
               grant programs. The Commonwealth did not ensure that local jurisdictions had adequate
               financial management systems to administer the grant programs. Three of eight local
               jurisdictions and one of three first responders sampled did not maintain accurate accounting
               records of costs incurred under the DHS grants. Arlington County could not reconcile
               expenditure records, while Lynchburg City could not support costs claimed under the FY
               2003 SHSGP-I and FY 2003 SHSGP-II competitive grants to its accounting records. In
               addition, since Fairfax County’s accounting system provided only summary accounting
               detail, the County used an Excel spreadsheet to support transaction-level detail. However,
               the spreadsheet was not regularly updated. As a result, Fairfax County was unable to
               reconcile (the spreadsheet to the accounting system to determine) actual funds encumbered
               and expended. Finally, the Arlington County Fire Department could not determine if funds
               allocated under the FY 2003 SHSGP-II grant had been expended.

           • 	 Some equipment purchases were not on the approved Equipment Budget Detail
               Worksheet. As noted in Finding No. 5, jurisdictions purchased items that were not on the
               approved equipment budget detail worksheet as required by ODP. The deviations from the
               approved worksheet could have been authorized by the ODP Preparedness Officer in place at
               the time; however, there was no documentation at ODP or the Commonwealth to support that
               deviations were requested or approved. Additionally, certain local jurisdictions
               acknowledged that they were not following their approved worksheet. While the
               Commonwealth may have made jurisdictions aware of these specific grant requirements, they
               did not have staff available to monitor purchases on a periodic basis.

           • 	 Progress reporting was inadequate. The Commonwealth had no procedures in place to
               obtain information on jurisdictions’ grant progress. The Commonwealth did not require the
               local jurisdictions to submit progress reports, nor did it have enough staff available to

5
    An Analysis of First Responder Grant Funding, not dated.
                                                         11

DHS                                                                 Office for Domestic Preparedness
                                                                          Commonwealth of Virginia

            routinely contact the subgrantees to obtain project status. As a result of an inquiry made by
            the Secretary of Public Safety, the Commonwealth made a one-time request in November
            2004 for each jurisdiction to submit a progress report that covered the FY 2003 SHSGP-I and
            II grants. Four of the eight local jurisdictions submitted the progress reports late, and two
            failed to submit them. The Commonwealth cannot adequately track grant performance if
            jurisdictions do not submit progress reports or when the information requested is not
            submitted timely.

        • 	 Purchases were not made within the grant-established deadlines. The Commonwealth
            required jurisdictions to follow grant requirements and obligate funds within the specified
            end dates. However, three of eight local jurisdictions did not comply with the grant period of
            performance identified in the award letter and have unspent funds after grant periods have
            expired.

        • 	 Local jurisdictions were not prepared to identify needs or make purchasing decisions.
            By not requiring the jurisdictions to update their needs, the Commonwealth unintentionally
            created delays within jurisdictions regarding funding decisions. In addition, regarding timely
            submission of grant applications, seven of eight local jurisdictions submitted applications to
            the Commonwealth ranging from 63 days to 364 days after receiving notification from the
            Commonwealth, as illustrated in Appendix B.

            Further, six of eight local jurisdictions delayed procurement actions after receipt of grant
            funds for all three grants. The number of days ranged from 188 to 568 as detailed in
            Appendix C.

        • 	 For all three grant years, five of eight local jurisdictions submitted closeout packages
            ranging from 54 days to 474 days after completing their final purchases. (Appendix D
            provides more details on closeout delays.)

        • 	 One county was forced to estimate information entered into the Initial Strategy
            Implementation Plan (ISIP) to meet the reporting deadlines in 2004 and 2005. Thus, the
            Commonwealth did not have an accurate account of the projects that the county planned to
            fund. In addition, the county will be required to identify changes when the actual projects do
            not match the budgeted projects.

In managing the FY 2004 and FY 2005 grants, the Commonwealth made improvements to certain
monitoring practices; however, it did not change its overall grants management practices such as the
decentralized grant and procurement policies. Also, it did not increase staffing levels.

Recommendation 3: We recommend that ODP require the Commonwealth to implement a system of
controls and monitoring processes over its subgrantees to comply with the requirements of 28 CFR
§ 66.40(a).

Management’s Response: G&T concurred with the philosophy of this recommendation but emphasized
that the SAA faces multiple priorities with monitoring its sub-grantees that it must continually
re-evaluate. G&T will work with the Commonwealth to develop a practical and effective monitoring
process, and the Preparedness Officer for Virginia will examine and comment on the Commonwealth’s
monitoring system.


                                                     12

DHS                                                                  Office for Domestic Preparedness
                                                                           Commonwealth of Virginia

Auditor’s Additional Comments: We believe that the action planned by G&T is responsive to the
recommendation.

4. 	    The Commonwealth did not have adequate internal controls over monitoring cash
        advances.

The Commonwealth did not have procedures in place to minimize the time elapsing between fund transfer
and disbursement. It also did not establish procedures to ensure that balances were maintained at
minimum levels and adequately accounted for by local jurisdictions. The Commonwealth immediately
advanced the complete subgrant award amount to local jurisdictions after it approved jurisdiction
applications. For FY 2003 SHSGP-I grants, the Commonwealth disbursed the advance as it received
approval from ODP of the local jurisdictions’ FY 2003 I Equipment Budget Detail Worksheets and
notification that those funds had been obligated in the Phone Activated Paperless Request System.

Specifically, the Commonwealth did not require the subgrantees to:

        •   Provide documentation to support disbursement of funds.

        •   Provide periodic status reports on remaining cash balances.

        •   Remit interest earned on cash advances.

According to Administrative Requirements for Grants, grantees and subgrantees must follow 28 CFR
§ 66.20(b)(7) Cash Management, procedures for minimizing time elapsing between transfer of funds from
the U.S. Treasury and disbursement by grantees and subgrantees must be followed whenever advance
procedures are used. Grantees must establish reasonable procedures to ensure the receipt of reports on
subgrantees’ cash balances and cash disbursements in sufficient time to enable them to prepare and
complete accurate cash transaction reports to the awarding agency. Grantees must monitor cash
draw-downs by their subgrantees to assure that they conform substantially to the same standards of timing
and amount as apply to advances to the grantees.

The Office of Justice Programs (OJP) provides financial services to DHS to administer this program.
Grantees, therefore are required to comply with OJP financial management provisions. The Office of
Justice Programs Financial Guide (2005 edition), Part III, Chapter I, Payments, Minimum Cash On
Hand, reminds grantees that idle funds in the hands of subrecipients (subgrantees) will impair cash
management goals. All grantees must develop procedures for disbursing funds to ensure that federal cash
on hand is kept at a minimal balance. Chapter I of this guide also states that all local units of government
(political subdivisions of a state, including cities, towns, counties, and special districts created by state
law) must account for interest earned on federal funds. Local units of government may keep interest
earned on federal grant funds up to $100 per federal fiscal year. This maximum limit is not per award; it
is inclusive of all interest earned as a result of all federal grant program funds received per year.

Six of the eight local jurisdictions we visited had unspent cash balances as of our site visit. For the
FY 2003 SHSGP-I and SHSGP-II awards, ODP established purchase deadlines of March 31, 2005 and
April 30, 2005, respectively. While our site visits were performed within a week of the April 30, 2005
deadline, we noted on-hand cash balances at the time of our visit:




                                                     13

DHS                                                                  Office for Domestic Preparedness
                                                                           Commonwealth of Virginia

                                                   Table 4
        Program                                      Jurisdiction                        Amount*
        FY 2003 SHSGP-I & II         Arlington County                                     $90,846
        FY 2003 SHSGP-I              Lynchburg City                                         2,800
        FY 2003 SHSGP-II             Lynchburg City                                         3,993
        FY 2003 SHSGP-II             Lynchburg City                                         1,338
        FY 2003 SHSGP-II             Fairfax City                                           5,033
        FY 2002 SDPP                 Manassas City                                          1,714
        FY 2003 SHSGP-I              Falls Church City                                         63
        FY 2003 SHSGP-II             Falls Church City                                        444
        FY 2002 SDPP                 Fairfax County                                        15,794
        FY 2003 SHSGP-II             Fairfax County                                       347,820
        FY 2003 SHSGP-I              Fairfax County, Herndon Police Department              1,682
        Total                                                                           $471,527
        * Represents subgrantees’ remaining cash balances on hand less any unpaid encumbrances.

In addition to ending cash balances (unspent funds), some subgrantees took over a year to expend their
advances, and even longer to report the results of their spending to the Commonwealth. Excess cash
balances were created by several factors. Funds were received as soon as applications were approved and
many jurisdictions were not prepared to spend the funds. They either did not know what their purchases
would be, or, for items that they had identified, had not initiated the procurement process.

Some jurisdictions were not aware that unspent funds needed to be returned to the Commonwealth.
Others contacted the Commonwealth about ending balances and were authorized to spend remaining
balances on other items not necessarily identified in their spending plans. Had the Commonwealth
reimbursed local jurisdictions only for actual purchases from their spending plans, it could have obligated
remaining funds to another jurisdiction for a higher priority that needed to be fulfilled. Appendix E
identifies the number of days between the date the funds were transferred to selected subgrantees and the
date the subgrantees made their first and last purchases under that grant award.

The Commonwealth decided to advance funds to all jurisdictions because it provided the subgrantees with
immediate funds to encumber or purchase items. Additionally, providing the full advance eliminated any
delays that might occur due to slow cash flow. It opted for this method since it ensured compliance with
the grant requirement to pass-on grant funds to the local jurisdictions within 45 day of the state’s receipt
of the award.

While advancing funds to subgrantees might enhance program performance, the grantee needs the ability
to closely monitor subgrantee activity. However, as discussed in Finding 3, the Commonwealth did not
have sufficient staff to adequately monitor subgrantees to:

        •   Ensure timely expenditure of the funds;

        •   Obtain documentation to minimize advances;

        •   Obtain documentation on, and receipt of, interest earned; and

        •   Ensure receipt of remaining unspent cash advances.

                                                      14

DHS                                                                Office for Domestic Preparedness
                                                                         Commonwealth of Virginia

The Commonwealth has revised its cash advance policies. For the 2004 grant, local jurisdictions may
only receive an advance if they have encumbered or spent 70 percent of their combined grant awards up
to that point (1999-2004). Additionally, the Commonwealth is requiring that local jurisdictions provide a
list of items to be purchased with the advance that they are requesting. Yet, the Commonwealth still does
not have the staff necessary to adequately monitor this new compliance issue, or contact each jurisdiction
to calculate and recover any unspent funds or interest earned from the older grants.

Recommendation 4: We recommend that ODP require that the Commonwealth identify all existing cash
advances from past grants, and recoup excess unspent funds.

Recommendation 5: We recommend that ODP require that the Commonwealth develop and implement
procedures to ensure adequate controls over existing cash advances and advances under future awards.

Management’s Response: G&T will conduct a fiscal monitoring visit in FY 2007 and determine what
funds, if any should be returned. G&A will also review the SAA’s procedures for disbursing cash.

Auditor’s Additional Comments: We believe that the actions planned by G&T are responsive to the
recommendation.

5. 	    The Commonwealth Did Not Adhere to Grant Requirements Regarding Equipment
        Purchases.

The Commonwealth allowed equipment purchases that were not identified on the respective authorized
equipment lists for the FY 2002 SDPP, and FY 2003 SHSGP-I and II grants. In addition, the
Commonwealth did not comply with the FY 2003 SHSGP-I grant provisions that required all purchased
equipment to have prior ODP approval (through the approval of the jurisdiction’s Equipment Budget
Detail Worksheets).

Authorized Equipment List (AEL). Each grant application included a detailed AEL that identified
allowable equipment. The AELs identified broad categories of allowable equipment (9 for FY 2002
SDPP grants and 12 for FY 2003 SHSGP-I and II grants) and then identified specific authorized items
within each category. The Commonwealth believed that if an item fit within a broad category, it was
authorized even though the item was not specifically identified on the AEL.

ODP issued specific guidance for each grant regarding authorized equipment. For the FY 2002 SDPP
grant, Appendix F of the ODP Fiscal Year 2002 State Domestic Preparedness Program, Program
Guidelines and Application Kit, contained the Fiscal Year 2002 Authorized Equipment Purchase List
which states:

        The Fiscal Year 2002 State Domestic Preparedness Program authorized equipment
        purchase list was derived from the Standardized Equipment List (SEL).…Because the
        SEL also contains lists of general use and support equipment, a more narrow list was
        derived from the SEL to identify the specific types of specialized equipment authorized for
        purchase under the Fiscal Year 2002 State Domestic Preparedness Program.

For the FY 2003 SHSGP-I grant, Appendix G of the Fiscal Year 2003 Authorized Equipment List stated:

        The FY 2003 SHSGP [State Homeland Security Grant Program] authorized equipment
        list was derived from the Standardized Equipment List (SEL)…. Because the SEL also
        contains lists of general use and support equipment, a more narrow list was derived from
                                                    15

DHS                                                                Office for Domestic Preparedness
                                                                         Commonwealth of Virginia

        the SEL to identify the specific types of specialized equipment authorized for purchase
        under the FY 2003 SHSGP.

For the FY 2003 SHSGP-II grant, the Office of Domestic Preparedness, Fiscal Year 2003 State
Homeland Security Grant Program-Part II, Program Guidelines and Application Kit, Section II, C, 2,
First Responder Preparedness, stated that “A complete list of allowable equipment…may be found in
Appendix B.”

Additionally, ODP has rejected a DHS-OIG recommendation that grantees be allowed to use the most
recent AEL when determining allowability of prior year purchases.

Table 5 lists examples of items purchased by selected subgrantees that were not on the AELs:

                                                 Table 5
Grant                        Jurisdiction                       Description                       Amount
FY 2003 SHSGP-II        Fairfax County           Generator                                        $68,733
FY 2003 SHSGP-II        Fairfax County           Message Sign Board                                90,656
FY 2003 SHSGP-II        Fairfax County           Nextel Blackberry/Accessories                      3,614
FY 2003 SHSGP-II        Fairfax County           Reverse 911 Database                               2,051
FY 2003 SHSGP-II        Fairfax County           EOC Generator                                    191,088
                        Herndon Police Dept.
FY 2003 SHSGP-I            (Fairfax County)      TV /Accessories                                   15,781
FY 2003 SHSGP-II        Fairfax City             Ice Rescue Equipment                               2,786
FY 2002 SDPP            Falls Church City        XM Satellite Radio Weather Subscription            1,302
FY 2003 SHSGP-II        Falls Church City        Blackberry Cellular Phones                         8,680
FY 2002 SDPP            Manassas City            Ventilation Fans and accessories                   2,709
FY 2002 SDPP            Bedford County           General Supplies                                      92
FY 2002 SDPP            Bedford County           General Supplies                                     180
FY 2002 SDPP            Bedford County           Binoculars                                            80
FY 2002 SDPP            Bedford County           Traffic Cones                                        688
FY 2002 SDPP            Bedford County           Flashlight                                           180
FY 2003 SHSGP-I         Bedford County           Water Rescue Equipment                             6,005
FY 2003 SHSGP-I         Bedford County           Pagers                                             4,052
FY 2003 SHSGP-I         Bedford County           Gas Monitor                                        7,500
FY 2003 SHSGP-II        Bedford County           T-Shirts                                           2,353
FY 2003 SHSGP-II        Bedford County           Cellular Phone                                        55
Total                                                                                          $408,585

The Commonwealth believed that neither the grant application nor the AEL contained clear guidance to
indicate that an item must be specifically authorized, or conversely, if a broad category description is
adequate for allowability. However, the ODP preparedness officer who had regional responsibility for the
Commonwealth also stated that the items must be specifically identified on the AEL, not just contained in
a general category.

FY 2003 SHSGP-I Budget Detail Worksheet. The Commonwealth was required to submit an Equipment
Budget Detail Worksheet to ODP for approval under the FY 2003 SHSGP-I grant. The Commonwealth
‘packaged’ local jurisdictions’ worksheets and sent them to ODP for approval in batches. These
worksheets identified the specific equipment to be purchased, number of items, estimated total costs, and
                                                    16

DHS                                                                  Office for Domestic Preparedness
                                                                           Commonwealth of Virginia

response disciplines that would receive it. In addition, local jurisdictions were required to submit revised
worksheets for Commonwealth and ODP approval when they deviated from the approved budget.

We noted the following purchases for selected subgrantees that were not on the jurisdictions’ approved
worksheets, and found no evidence that revised worksheets were submitted to ODP for approval:

        • 	 Falls Church City. Falls Church City expended $3,107 for combat ballistic helmets with
            unspent funds from the FY 2003 SHSGP-I grant. The helmets were in the same budget
            category as escape hoods, which had been approved on the worksheet. The Commonwealth
            did not submit a revised worksheet to ODP for approval for the deviation.

        • 	 Bedford County. Bedford County purchased multiple items not on the FY 2003 SHSGP-I
            grant worksheet, but in the same categories as items previously approved on the worksheet.
            The Commonwealth did not submit a revised worksheet to ODP to get approval for the
            deviation.

        • 	 Arlington County. We identified many items not on the approved FY 2003 SHSGP-I grant
            worksheet or not identified on annual spending plans. City representatives noted that they
            were unaware of the restriction.

        • 	 Fairfax County (Herndon Police Department). We identified items that were not on the
            approved worksheet. Because Fairfax County has not submitted a closeout package for the
            FY 2003 SHSGP-I grant (see Finding No. 3), we were unable to determine if the
            Commonwealth would allow the deviations. These deviations were in the same budget
            categories as equipment approved on the worksheet; thus it is likely that the Commonwealth
            would not submit a revised budget to ODP.

ODP’s Fiscal Year 2003 State Homeland Security Grant Program, Program Guidelines and Application
Kit, Section V, B, Supplemental Documents, Equipment Budget, Sub-Awards, stated:

        For sub-awards,… [a]pplicants must also provide an Equipment Budget Detail
        Worksheet for each jurisdiction receiving funding through sub-awards. These worksheets
        should detail the equipment to be purchased, the number of items, the estimated total
        costs, and the response disciplines that will receive it (see Appendix B.)

The Commonwealth noted that actual purchases have been (and will be) identified by the local
jurisdictions through the closeout process. At that time, if purchases were made that had not been
approved, the Commonwealth would submit a revised worksheet to ODP for approval before it will close
out the subgrant with the jurisdiction. However, ODP may not approve the revisions, and there will be
little if no time available for the subgrantee to rectify the situation. Additionally, we noted that the
Commonwealth will allow local jurisdictions to purchase items not specifically identified on the
worksheets as long as the item was within the same equipment category as an approved item on the
equipment list. However, the ODP preparedness officer noted that all items must be identified on the
worksheets and require prior approval, including substitutions, or identification of new items available to
be purchases with excess funds.

Recommendation 6: We recommend that ODP require that the Commonwealth establish and implement
management controls to monitor purchases for compliance with ODP’s AEL.



                                                     17

DHS                                                               Office for Domestic Preparedness
                                                                        Commonwealth of Virginia

Recommendation 7: We recommend that ODP require that the Commonwealth ensure that the FY 2003
SHSGP-I closeout packages from local jurisdictions do not include purchases that were not identified and
approved on the FY 2003 SHSGP-I worksheets, or submit revised worksheets to ODP for retroactive
approval of those items.

Recommendation 8: We recommend that ODP require that the Commonwealth identify equipment
purchases not on the AEL and resolve each with ODP.

Management’s Response: G&T concurred with Recommendations 6, 7, and 8, noting that a strategic
monitoring visit and a financial monitoring trip are scheduled for the Commonwealth.

Auditor’s Additional Comments: We believe that actions planned by G&T are responsive to the
recommendations.




                                                   18

DHS                  Office for Domestic Preparedness
                           Commonwealth of Virginia



      APPENDICES 





           19

DHS                                                                    Office for Domestic Preparedness
                                                                             Commonwealth of Virginia


                                                                                                  Appendix A
                                  Objectives, Scope, and Methodology

The objective of the audit was to determine whether the Commonwealth of Virginia effectively and efficiently
implemented the first responder grant programs, achieved the goals of the programs, and spent the funds
awarded according to grant requirements. The goal of the audit was to identify problems and solutions that
would help the Commonwealth of Virginia prepare for and respond to terrorist attacks.

The DHS, Office of Inspector General (OIG) is reporting the results of the audit to appropriate DHS officials.

The scope of the audit included the following three grant programs, for an aggregate total of $53.5
million. These programs are described in the Background section of this report.

        •        FY 2002 State Domestic Preparedness Program (SDPP)

        •        FY 2003 State Homeland Security Grant program - Part I (SHSGP-I)

        •        FY 2003 State Homeland Security Grant program - Part II (SHSGP-II)

The audit methodology included work at ODP Headquarters, the Virginia Department of Emergency
Management, the Office of Commonwealth Preparedness, various subgrantee locations and local
jurisdictions. Accordingly, we visited eight subgrantee locations, and three first responder organizations.
Of the eight locations, three are among the largest jurisdictions within the Commonwealth of Virginia and
the National Capital Region. These subgrantees were awarded about $6.2 million by the Commonwealth
under the above three grant programs1. The purposes of the visits were to obtain an understanding of the
three grant programs and to assess how well the programs were being managed. Our audit considered
DHS/ODP and Commonwealth policies and procedures, as well as the applicable federal requirements.
We reviewed documentation received from ODP, as well as from the Commonwealth offices and
subgrantees. We interviewed responsible officials, reviewed documentation supporting the
Commonwealth and subgrantees management of the awarded grant funds, and physically inspected some
of the equipment procured with the grant funds. We reviewed reports from prior audits on the first
responder subject matter, such as reports from the Government Accountability Office and from the House
Appropriations Committee’s Survey and Investigative Staff. Finally, we reviewed recent data provided to
us by the Commonwealth in order to determine if the same weaknesses or issues that we initially noted in
our review still existed at the Commonwealth.

The audit of the Commonwealth of Virginia was conducted between March 2005 and August 2005. The
audit was conducted in accordance with Government Auditing Standards as prescribed by the Comptroller
General of the United States (Yellow Book). We were not engaged to and did not perform a financial
statement audit, the objective of which would be to express an opinion on specified elements, accounts, or
items. Accordingly, we did not express an opinion on the costs claimed for the first responder grant
programs included in the scope of the audit. If we had performed additional procedures or conducted an
audit of the financial statements in accordance with generally accepted auditing standards, other matters
might have come to our attention that would have been reported. This report relates only to the programs
specified. The report does not extend to any financial statements of the Commonwealth of Virginia.


1
 We visited Alexandria City, Arlington County, Bedford County, Fairfax City, Fairfax County, Falls Church City,
Lynchburg City, and Manassas City.

                                                       20

DHS                                                        Office for Domestic Preparedness
                                                                 Commonwealth of Virginia


                                                                               Appendix B

                           Commonwealth of Virginia
                         Schedule of Application Delays


                                               Application      Application     Days
 Local Jurisdiction       Grant                Notification     Submission     Delayed
 Arlington County     FY 2002 SDPP              11/27/02          2/28/03         93
 Arlington County     FY 2003 SHSGP-I           06/20/03          8/28/03         69
 Alexandria City      FY 2002 SDPP              11/26/02          9/29/03        307
 Bedford County       FY 2002 SDPP              11/26/02          3/23/03        117
 Bedford County       FY 2003 SHSGP-I           06/20/03          9/23/03         95
 Fairfax City         FY 2002 SDPP              11/26/02          3/17/03        111
 Fairfax City         FY 2003 SHSGP-I           06/20/03          6/18/04        364
 Fairfax City         FY 2003 SHSGP-II          07/21/03          6/18/04        333
 Fairfax County       FY 2002 SDPP              11/26/02          3/06/03        100
 Fairfax County       FY 2003 SHSGP-I           06/20/03          8/22/03         63
 Falls Church City    FY 2002 SDPP              11/26/02          9/29/03        307
 Falls Church City    FY 2003 SHSGP-I           06/20/03          9/12/03         84
 Lynchburg City       FY 2002 SDPP              11/26/02          2/26/03         92
 Manassas City        FY 2002 SDPP              11/26/02          3/07/03        135




                                         21

DHS                                                                        Office for Domestic Preparedness
                                                                                 Commonwealth of Virginia


                                                                                                    Appendix C

                                        Commonwealth of Virginia
                                      Schedule of Procurement Delays


                                                                    Funds         Last Purchase      Days
     Local Jurisdiction                      Grant                 Received       Invoice/ P.O.     Delayed
     Alexandria City                FY 2002 SDPP                   11/20/03             07/06/04      229 

     Alexandria City                FY 2003 SHSGP-I                01/12/04             03/31/05      444 

     Alexandria City                FY 2003 SHSGP-II               02/09/04             10/06/04      240 

     Arlington County               FY 2002 SDPP                   03/12/03             12/29/03      292 

     Arlington County               FY 2003 SHSGP-I & II           02/12/04             04/26/052     439         

     Fairfax City                   FY 2003 SHSGP-I                09/10/04             03/17/05      188 

     Fairfax City                   FY 2003 SHSGP-II               09/10/04             04/29/05      231 

     Fairfax County                 FY 2002 SDPP                   02/26/031            09/16/04      568     

     Fairfax County                 FY 2003 SHSGP-I                11/18/031            05/18/052     547         

     Fairfax County                 FY 2003 SHSGP-II               01/20/041            05/18/052     484         

     Falls Church City              FY 2002 SDPP                   11/30/03             06/29/04      212 

     Lynchburg City                 FY 2002 SDPP                   03/21/031            11/19/03      243     

     Lynchburg City                 FY 2003 SHSGP-I                11/18/031            030/9/05      477     

     Lynchburg City                 FY 2003 SHSGP-II               01/20/041            04/29/052     465         





1

     Fund receipt date not available. The fund transfer letter date was used instead.
2

     All program funds had not been expended by this date.




                                                          22

DHS                                                                     Office for Domestic Preparedness
                                                                              Commonwealth of Virginia


                                                                                              Appendix D

                                           Commonwealth of Virginia
                                           Schedule of Closeout Delays



                                                               Last        Closeout Package     Days
     Local Jurisdiction                      Grant           Purchase         Submission       Delayed
     Alexandria City                 FY 2003 SHSGP-II        10/06/04          12/01/04           56
     Bedford County                  FY 2002 SDPP            08/19/03          12/15/03          118
     Bedford County                  FY 2003 SHSGP-I         11/21/04          04/15/05          145
     Bedford County                  FY 2003 SHSGP-II        06/30/04          10/01/04          163
     Fairfax County                  FY 2002 SDPP            09/16/04          12/15/04           90
     Fairfax City                    FY 2002 SDPP            08/27/03          12/13/04          474
     Fairfax City                    FY 2003 SHSGP-I         03/17/05          05/10/051          54
     Falls Church City               FY 2003 SHSGP-II        07/02/04          04/06/05          278
     Manassas City                   FY 2002 SDPP            09/08/03          12/20/04          469
     Manassas City                   FY 2003 SHSGP-I         08/28/03          01/13/04          138
     Manassas City                   FY 2003 SHSGP-II        07/13/04          01/31/05          202




1
    Closeout package not submitted as of this date.
                                                        23
  DHS                                                                         Office for Domestic Preparedness
                                                                                    Commonwealth of Virginia


                                                                                                           Appendix E

                                  Commonwealth of Virginia
            Schedule of Days Between Funds Transferred and First and Last Purchases




                             FY 2002 SDPP                   FY 2003 SHSGP Part I               FY 2003 SHSGP Part II

                          Days              Days              Days             Days              Days              Days
                        Between           Between           Between          Between           Between           Between
                         Funds             Funds             Funds            Funds             Funds             Funds
                        Transfer          Transfer          Transfer         Transfer          Transfer          Transfer
     Local              and First         and Last          and First        and Last          and First         and Last
  Jurisdiction          Purchase          Purchase          Purchase         Purchase          Purchase          Purchase

Alexandria City              4               229               -64              440                -63              240
Arlington County           N/A1              292               56               4391               56               4392
Bedford County              62               146              -399              102               -372              -143
Fairfax City                66               145               41               188                79               2312
Fairfax County             342               568              156               5472              101               4842
Falls Church City          129               212               -34               19                16               142
Lynchburg City              41               243              203               477                46               4652
Manassas City              111               166              N/A1              -82               N/A1              175




  1
    Only one purchase was made by the local jurisdiction, therefore we only measured the number of days between
  funds transfer and last purchase. The measurement between funds transfer and first purchase is Not Applicable
  (N/A) for these local jurisdictions.
  2
    All program funds had not been expended by the site visit; for these local jurisdictions, the site visit date was used
  as date of last purchase.

                                                             24
DHS                                                                     Office for Domestic Preparedness
                                                                              Commonwealth of Virginia


                                                                                                    Appendix F

                                   Commonwealth of Virginia 

                      Schedule of Questioned Costs From Sampled Site Visits 


A. Equipment Budget Detail Worksheet- The following schedule contains equipment purchased by
select local jurisdictions/first responders that was not on the local jurisdictions’ approved equipment
budget detail worksheets:
                                                                                           Amount
       Local Jurisdiction                                    Description                  Questioned
       Bedford County                               Prime Mover                               $4,875
       Bedford County                               Torch                                         99
       Bedford County                               Water Rescue Gear                            760
       Bedford County                               Handlight, Headlamp                          489
       Bedford County                               Goggles                                    1,015
       Bedford County                               Construction Tools                           795
       Bedford County                               Bracing Material                             529
       Bedford County                               Torch                                        251
       Bedford County                               Bracing Material                           1,770
       Bedford County                               Pulley System                                910
       Bedford County                               Air shore Mounts                             480
       Bedford County                               Grip hoist                                 2,661
       Bedford County                               Pulley and Blowers                         2,713
       Bedford County                               Bullet Proof Vest                          7,296
       Bedford County                               Welding Equipment                          1,332
       Bedford County                               Saw                                        3,070
       Bedford County                               Manifold, gloves                           1,405
       Bedford County                               Helmet, Hearing Protection                 1,332
       Bedford County                               Rescue Equipment                           1,155
       Bedford County                               Rescue Helmet, Gloves                        444
       Bedford County                               Rescue Harness                               530
       Bedford County                               Torch Equipment                              200
       Bedford County                               Hammer & Bit                                 638
       Bedford County                               Helmet                                       170
       Bedford County                               Storage box, tow straps                       69
       Bedford County                               Radio/Headset                              1,271
       Bedford County                               Miscellaneous Supplies                     1,711
       Bedford County                               Pagers                                     4,052
       Falls Church City                            Combat Ballistic Helmet                    3,107
       Herndon Police (Fairfax County)              Television/Accessories                   15,7811
       Herndon Police (Fairfax County)              Portable Radio Equipment                 10,6031
       Subtotal                                                                              $71,513



1
  Closeout package not submitted to VDEM as of the site visit. Therefore, these costs have not been claimed by the
local jurisdictions.

                                                        25
DHS                                                                      Office for Domestic Preparedness
                                                                               Commonwealth of Virginia


                                                                                                    Appendix F

                                     Commonwealth of Virginia 

                        Schedule of Questioned Costs From Sampled Site Visits 



B. AEL- The following schedule contains equipment purchased by select local jurisdictions/first
responders that was not identified on the Authorized Equipment Lists (AELs) for that grant year:



                                                                                                  Amount
    Local Jurisdiction               Grant                         Description                   Questioned
    Bedford County           FY 2002 SDPP              General Supplies                                  $92
    Bedford County           FY 2002 SDPP              General Supplies                                  180
    Bedford County           FY 2002 SDPP              Binoculars                                         80
    Bedford County           FY 2002 SDPP              Traffic Cones                                     688
    Bedford County           FY 2002 SDPP              Flashlight                                        180
    Bedford County           FY 2003 SHSGP-I           Pagers                                         4,0521
    Bedford County           FY 2003 SHSGP-I           Water Rescue Equipment                         6,0051
    Bedford County           FY 2003 SHSGP-II          Gas Monitor                                     7,500
    Bedford County           FY 2003 SHSGP-II          T-Shirt                                         2,353
    Bedford County           FY 2003 SHSGP-II          Cellular Phone                                     55
    Fairfax City             FY 2003 SHSGP-II          Ice Rescue Equipment                           2,7862
    Falls Church City        FY 2002 SDPP              XM Radio Weather Subscription                   1,302
    Falls Church City        FY 2003 SHSGP-II          Blackberry Cell Phones                          8,680
    Manassas City            FY 2002 SDPP              Ventilation Fans and accessories                2,709
    Fairfax County           FY 2003 SHSGP-II          Generator                                     68,7332
    Fairfax County           FY 2003 SHSGP-II          Message Sign Board                            90,6562
    Fairfax County           FY 2003 SHSGP-II          Nextel Blackberry /Accessories                 3,6142
    Fairfax County           FY 2003 SHSGP-II          Reverse 911 Database                           2,0512
    Fairfax County           FY 2003 SHSGP-II          EOC Generator                                191,0882
    Herndon Police
     (Fairfax County)        FY 2003 SHSGP-I           TV /Accessories                              15,7811,2
    Subtotal                                                                                       $382,747




1
  Equipment was not on the 2003 I Equipment Budget Detail Worksheet, as mentioned in Schedule A above. 

Therefore, these costs are not included in the subtotal of questioned costs in this schedule. 

2
  Closeout package not submitted to VDEM as of the site visit. Therefore, these costs have not yet been claimed by

the local jurisdictions. 





                                                        26

DHS                                                              Office for Domestic Preparedness
                                                                       Commonwealth of Virginia


                                                                                      Appendix F

                                Commonwealth of Virginia 

                   Schedule of Questioned Costs From Sampled Site Visits 



C. Fund Balance- The following schedule represents unspent cash balances awarded under the FY 2002
SDPP grant, which is now closed:



                                                   Amount
                      Local Jurisdiction          Questioned
                      Manassas City                    $1,714
                      Fairfax County                   15,794
                      Subtotal                        $17,508



Total Questioned Costs (A, B and C)                   $471,768




                                                27

DHS                   Office for Domestic Preparedness
                            Commonwealth of Virginia




      MANAGEMENT RESPONSE 

            TO THE 

         DRAFT REPORT





               28

DHS         Office for Domestic Preparedness
                  Commonwealth of Virginia




      29

DHS                                                            Office for Domestic Preparedness
                                                                     Commonwealth of Virginia



                         Office of Grants and Training (G&T)

                Comments on the DHS Office of the Inspector General Audit

                           of the Commonwealth of Virginia

                    Management of State Homeland Security Grants 

                     Awarded During Fiscal Years 2002 and 2003




The audit report covers the FY 2002 State Domestic Preparedness Program (SDPP) and FY 2003
State Homeland Security Grant Program (SHSGP) Parts I & II grants, which in turn support the
1999/2000 and 2003 Virginia State Homeland Security Strategies (both of which are specifically
mentioned). Audit findings and recommendations, along with Office of Grants and Training
(G&T – formerly ODP) comments follow:

Finding 1. The Commonwealth did not adequately document its plan and implementation of the
grant programs.

Recommendation: We recommend that ODP require the Commonwealth to implement
procedures that will assure that its 2006 Strategy is a complete, accurate, and a coordinated
document that assesses threats, vulnerabilities, and risks.

Comments:
G&T stated in Information Bulletin 183 -- Updating State and Urban Area Homeland Security
Strategies (July 22, 2005) that all states and Urban Areas must submit a revised Homeland
Security Strategy prior to making application for FY 2006 grant funding. Attached to
Information Bulletin 183 was Guidance on Aligning Strategies with the National Preparedness
Goal. The Guidance stated:

       1) The purpose of Homeland Security Strategies is to: provide a blueprint for
       comprehensive, enterprise-wide planning for homeland security efforts; and provide a
       strategic plan for use of related Federal, State, local, and private resources within the
       State and/or Urban Area. (p 2)

       2) MINIMUM REQUIREMENTS FOR UPDATING STRATEGIES: At a minimum,
       States and Urban Areas must ensure that their updated strategies address the four mission
       areas (prevent, protect, respond, recover) and reflect the seven National Priorities. In
       updating their strategies this year, States and Urban Areas should begin the process of
       evolving their strategies to address not only terrorism, but a broad range of other threats
       and hazards, founded on a capabilities-based planning approach. (p 8)

At no point in the most recent guidance provided by G&T was there a requirement for grantees
to incorporate threat, vulnerability, and risk data in their updated strategies. Undoubtedly G&T
wholly supports a collaborative effort between the Commonwealth and its sub-grantees to
conduct such efforts, and supports them with expert assistance in such efforts, but no

                                                30

DHS                                                           Office for Domestic Preparedness
                                                                    Commonwealth of Virginia


requirement existed that mandated this information to be included within the updated Homeland
Security Strategy (HSS).

Accordingly, Virginia submitted a completely revised HSS, which, along with those of all other
states, territories, and Urban Areas, was examined in detail by a DHS Strategy Review Board in
December 2005. The Board identified two conditions for final approval of Virginia’s strategy,
which were fully met thereafter. The 2006 HSS was approved on May 3, 2006.

Finding 2. The Commonwealth did not allocate ODP grant funds based on its risk assessment or
its stated goals.

Recommendation: We recommend that ODP require that the Commonwealth completes its
statewide strategy and needs assessment, and determines the best method to link the funds
distribution to its threats, associated risks, and needs assessments. The strategy should also
include any processes associated with this allocation methodology.

Comments:
G&T required grantees to link funding to the goals and objectives identified in their State
Homeland Security Strategy. The Commonwealth of Virginia accomplished this in FY 2006 and
provided documentation of the linkages via the G&T semi-annual report, the Biannual Strategy
Implementation Plan (BSIR).

As mentioned in the comments to Recommendation 1 above, Virginia has a fully approved 2006
HSS that complies with current G&T requirements. An assessment by the Commonwealth of its
needs and the subsequent allocation of funding (from all sources) is addressed in the G&T FY
2006 grant application process.

Specifically, in FY 2006, all states were required to implement an analytical review process to
assist in aligning their homeland security programs with the Interim National Preparedness Goal
(the Goal) and the seven National Priorities. This review and the required Enhancement Plan
that it produced were key components of the application process for Homeland Security Grant
Program (HSGP) funding in FY 2006.

Virginia has subsequently taken full advantage of the Program and Capability Review Technical
Assistance provided by G&T, has had its Enhancement Plans and Investment Justifications for
FY 2006 reviewed by the FY 2006 HSGP Peer Review process, and is awaiting announcement
of its FY 2006 grant award amount on or about May 31, 2006.

Finding 3. The Commonwealth could not effectively monitor local jurisdictions.

Recommendation: We recommend that ODP require the Commonwealth to implement a system
of controls and monitoring processes over its subgrantees to comply with the requirements of 28
CFR §66.40(a).
Comments:
G&T concurs with the practical philosophy of this recommendation, but understands the reality a
State Administering Agency faces with competing priorities for the available resources resulting
                                                31

DHS                                                           Office for Domestic Preparedness
                                                                    Commonwealth of Virginia


in difficult budget decisions. G&T will consult with the SAA and the Office of Commonwealth
Preparedness so the State can work towards the implementation of a practical and effective
internal state monitoring process of their sub-grantees’ grants administration practices. As part
of G&T’s annual strategic monitoring of each state’s HSGP activities, the Preparedness Officer
for Virginia will examine and comment upon this internal monitoring system.

In justifying Finding #3, the Report states certain findings for which G&T would like to issue
comments for the record. These findings include:

   • 	 Grant application requirements and closeout processes at the local level were paper
       intensive for the local jurisdiction staff.
   • 	 Organizational structures at some jurisdictions consisted of several management layers
       which required significant time to process grant functions.
   • 	 Local jurisdictions did not have adequate financial management systems to administer
       grant programs.

These are issues that concern jurisdictions within Virginia and for which the SAA cannot be held
wholly accountable. As part of its fiduciary responsibility, the SAA was justified in requiring
thorough documentation of expenditures from local governments for the closeout process. Many
local governments within the Commonwealth (as well as in numerous other States) have
established processes and requirements regarding the acceptance and expenditure of federal grant
funds. Although these processes may have caused delayed action on the part of some sub-
grantees, the Commonwealth was justified in expecting the sub-grantees to execute terms of their
agreement within the established period of time or justify an extension request. Establishment of
a more robust monitoring program by the SAA should allow them to help local jurisdictions in
development of more adequate grants management systems and practices.

Finding 4. The Commonwealth did not have adequate internal controls over monitoring cash
advances.

Recommendations:
  • 	 We recommend that ODP require that the Commonwealth identify all existing cash 

      advances from past grants, and recoup excess unspent funds. 

  • 	 We recommend that ODP require that the Commonwealth develop and implement
      procedures to ensure adequate controls over existing cash advances and advances under
      future awards.

Comments:
G&T’s Office of Grant Operations (OGO) will conduct a fiscal monitoring visit in FY 2007 and
determine what, if any, funds should be returned. Additionally, OGO will review the SAA’s
procedures for disbursing cash. It should be noted that in November 2004, prior to the IG
engagement, G&T requested its legacy financial support office (Office of Justice Programs
(OJP), Office of the Comptroller) to conduct a financial monitoring visit. Although initially
agreeing to conduct this visit, the OJP visit was suspended once the IG engagement was initiated.


                                                32

DHS                                                           Office for Domestic Preparedness
                                                                    Commonwealth of Virginia


Finding 5. The Commonwealth did not adhere to grant requirements regarding equipment
purchases.

Recommendations:
  • 	 We recommend that ODP require that the Commonwealth establish and implement 

      management controls to monitor purchases for compliance with ODP’s AEL. 

  • 	 We recommend that ODP require that the Commonwealth ensure that the FY 2003
      SHSGP-I closeout packages from local jurisdictions do not include purchases that were
      not identified and approved on the FY 2003 SHSGP-I worksheets, or submit revised
      worksheets to ODP for retroactive approval of those items.
  • 	 We recommend that ODP require that the Commonwealth identify equipment purchases
      not on the AEL and resolve each with ODP.

Comments:
G&T concurs with these recommendations and will work with the Commonwealth to resolve
these issues. During the annual strategic monitoring visit, the Preparedness Officer will address
the management and administration of Virginia’s homeland security grant programs with the
SAA. In addition, the Office of Grant Operations will conduct a financial monitoring trip in FY
2007.




                                                33

DHS                                                  Office for Domestic Preparedness
                                                           Commonwealth of Virginia


Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary, Management
Under Secretary, Preparedness
Chief Financial Officer
Chief Information Officer
Assistant Secretary, Public Affairs
Assistant Secretary, Policy
Assistant Secretary, Legislative and Intergovernmental Affairs
Chief Security Officer
DHS GAO/OIG Liaison

Office of Grants and Training

Assistant Secretary
Director, Office of Grant Operations
OIG Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress


Congressional Oversight and Appropriations Committees, as appropriate




                                           34

Additional Information and Copies


To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.



OIG Hotline


To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
